Northwest Federal Credit Union Credit Card Application Disclosure
FirstCard Visa® Platinum
Interest Rates and Interest Charges

Annual Percentage Rate
(APR) for Purchases

APR for Balance
Transfers

APR for Cash Advances

Penalty APR
Minimum Interest Charge
How to Avoid Paying
Interest on Purchases

12.90%

Visa® Platinum

NOW REWARDS Visa®

7.24% to 18.00%

8.24% to 18.00%

when you open your
account, based on your
creditworthiness.
After this, your APR will vary
with the market based on the
Prime Rate.

when you open your
account, based on your
creditworthiness.
After this, your APR will vary
with the market based on the
Prime Rate.

7.24% to 18.00% 8.24% to 18.00%

based on your
based on your
creditworthiness. This APR
creditworthiness. This APR
will vary with the market
will vary with the market
based on the Prime Rate.
based on the Prime Rate.
7.24% to 18.00% when you
8.24% to 18.00% when you
open your account, based
open your account, based
on your creditworthiness.
on your creditworthiness.
12.90%
After this, your APR will vary After this, your APR will vary
with the market based on the with the market based on the
Prime Rate.
Prime Rate.
None
None
None
None
None
None
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month

12.90%

For Credit Card Tips from
the Consumer Financial
Protection Bureau
Fees

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Annual Fee
Transactions Fees
• Balance Transfer
• Cash Advance
• Foreign
Transaction
Penalty Fees
• Late Payment
• Returned
Payment
• Over-the-Credit
Limit

None

None

None

3.00% of transaction amount
None
None

3.00% of transaction amount
None
None

3.00% of transaction amount
None
None

Up to $35
Up to $35

Up to $35
Up to $35

Up to $35
Up to $35

None

None

None

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new
purchases.)
Variable Rate Information: For Platinum and NOW Rewards cards, your APR is subject to change monthly
based on the U.S. Prime Rate published in the Wall Street Journal on the last business day of the prior month.
Your APR is determined by adding a Margin to the U.S. Prime Rate. The Margin is a percentage amount that we
determine based on an evaluation of your credit history and ranges from 3.99% to 13.49% depending on
product type.
The information on this disclosure is current as of May 17, 2021 and is subject to change. To determine if any
changes have occurred since this date call 844-709-8900.

